OIG Investigative Reports Press Release Ttampa, FL, 01/23/2013 - Pinellas County Man Sentenced To Nine Years In Federal Prison For Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT OF FLORIDA
NEWS
Pinellas County Man Sentenced To Nine Years In Federal Prison For Student Loan Fraud
FOR IMMEDIATE RELEASE
January 23, 2013
Tampa, FL - United States District Judge Susan Bucklew today sentenced James Isaac Boyd (40, St. Petersburg) to 9 years in federal prison for conspiring to commit student loan fraud, committing student loan fraud, and aggravated identity theft. In addition, he was ordered to pay restitution to the Department of Education in the amount of $464,269.00, and to forfeit computers and cellphones used in the commission of the offenses.
According to court documents and information presented in court, in January 2006, James I. Boyd and Shaneva Boyd formed a Florida corporation called "Graduate Assistance and Consolidations (GAC)," located in St. Petersburg Florida. James Boyd was the sole director, president and treasurer of GAC. He and co-conspirator Shaneva Boyd used GAC to carry out a student loan fraud scheme by assisting individuals who had neither a high school diploma nor a General Equivalency Degree (GED) with fraudulently enrolling for admission at St. Petersburg College (SPC), and then fraudulently applying for federal student financial aid. During the course of this scheme, James Boyd caused false statements to be made on student financial aid forms. He also directed dozens of financial aid checks for various individuals to be mailed to addresses associated with GAC. On some occasions, when the individuals named on the checks negotiated the checks, they paid James Boyd a significant percentage of the proceeds. On other occasions, James Boyd falsely and fraudulently endorsed and negotiated financial aid checks made out to putative students, without those individuals' knowledge, often depositing the checks into bank accounts he controlled. James Boyd assisted individuals with applying for fraudulent federal student financial aid (loans and grants) totaling $464,269.00.
Boyd pleaded guilty on October 23, 2012. During the hearing today, details about Boyd's previous criminal history were discussed. His criminal history includes a prior state conviction for murder in the third degree and a prior federal conviction for being a felon in possession of a firearm.
This case was investigated by United States Department of Education, Office of Inspector General. It was prosecuted by Assistant United States Attorney Cherie L. Krigsman.
Top
Printable view
Last Modified: 01/25/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov